tm
|

C@OCKLE

‘ E-Mail Address:
Le ga | Briefs contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214
Est. 1923

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No.

UNION HERMANDAD DE EMPLEADOS DEL
FONDO DEL SEGURO DEL ESTADO, ET AL.,
Petitioners,

v.

COMMONWEALTH OF PUERTO RICO, ET AL.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR A WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 8909 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 16th day of April, 2021.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska &v Chi,
i RENEE J. GOSS: 9. ( dural reaee :

My Comm. Exp. September 5, 2023

 

Notary Public Affiant 40715
